U.S. SMALL BUSINESS ADMINISTRATION

   OFFICE OF INSPECTOR GENERAL




           Report No. 11-01




         Fiscal Year 2011 Report
  on the Most Serious Management and
   Performance Challenges Facing the
      Small Business Administration




            October 15, 2010
                            U.S. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                   WASHINGTON, D.C. 20416




                                        October 15, 2010


MEMORANDUM

TO:            Karen G. Mills
               Administrator

               <Original signed by:>
FROM:          Peggy E. Gustafson
               Inspector General

SUBJECT:       Fiscal Year 2011 Report on the Most Serious Management and
               Performance Challenges Facing the Small Business Administration

In accordance with the Reports Consolidation Act of 2000, we are providing you with the Office
of Inspector General’s (OIG) Fiscal Year (FY) 2011 Report on the Most Serious Management
and Performance Challenges Facing the Small Business Administration (SBA). This report
represents our current assessment of Agency programs and/or activities that pose significant
risks, including those that are particularly vulnerable to fraud, waste, error, mismanagement or
inefficiencies. The Challenges are not presented in order of priority, as we believe that all are
critical management or performance issues.

Our report is based on specific OIG, Government Accountability Office (GAO), and other
official reports, as well as our general knowledge of SBA’s programs and operations. Our
analysis generally considers those accomplishments that SBA reported as of September 30, 2010.

Within each Management Challenge there are a series of “recommended actions” to resolve the
Challenge. Each recommended action is assigned a color “status” score. The scores are as
follows: Green for Implemented; Yellow for Substantial Progress; Orange for Limited Progress;
and Red for No Progress. An upwards arrow in the color box indicates that the color score
improved over last year’s report, and a down arrow indicates that it regressed.

As part of the OIG’s continuing evaluation of the Management Challenges, certain Challenges
have been updated or revised. In addition, actions that were scored Green last year, and which
remained Green this year, have been moved up to the “history bar” above the recommended
actions. The history bar highlights any progress that the Agency has made on a Challenge over
the past four FYs (or as long as the Challenge has existed, if shorter) by showing the number of
actions that have moved to Green each year.
We are pleased to report that one Management Challenge in last year’s report, Insufficient and
Outdated SBA Controls Contribute to Excessive Risk of the SBIC Program, has been completed
by virtue of both remaining recommended actions receiving Green color scores this year. The
OIG determined that SBA (1) was actively monitoring and timely transferring impaired Small
Business Investment Companies (SBICs) to liquidations when warranted and (2) had developed
performance goals and indicators to evaluate effectiveness of the liquidation process of SBICs
and was reporting annually on whether these goals had been met. This Challenge has been
shown as “completed” in the attached report and the remaining Challenges have been
renumbered accordingly.

The following table provides a summary of the FY 2011 report on the Agency’s Most Serious
Management and Performance Challenges.

                                                      Status Score
                    Topic                 Green      Yellow Orange          Red     Improved 1 Worsened 2
    1     Small Business Contracts                     2         1
    2     IT Security                                  3         1                                       1
    3     Human Capital                                2         1                                       1
    4     Loan Guaranty Purchase             1                   1                        1
    5     Lender Oversight                             4         2                        2
    6     8(a) BD Program                              3         1                                       1
    7     Loan Agent Fraud                             2                                  2
          Loan Management and
    8                                                               4                    __ 3           __
          Accounting System
    9     Improper Payments                  1          3           3                    __ 4           __
         Completed Challenge
            SBIC Program                     2                                            2
             TOTAL                           4          18         14                     7              3

We would like to thank SBA’s management and staff for their cooperation in providing us with
information needed to prepare this report. We look forward to continuing to work with SBA’s
leadership team in addressing the Agency’s Management Challenges.

Attachment




1
  “Improved” refers to a recommended action that showed progress this year over last year’s score (as denoted by an
“up” arrow).
2
  “Worsened” refers to a recommended action that regressed from last year’s score (as denoted by a “down” arrow).
3
  Management Challenge 8, Loan Management and Accounting System, was new in FY 2010. Consequently, no
color scores were shown in last year’s report against which to measure progress.
4
  Management Challenge 9, Improper Payments, was new in FY 2010. Consequently, no color scores were shown
in last year’s report against which to measure progress.
                                                         Table of Contents



                                                                                                                                       Page

Challenge 1. Procurement flaws allow large firms to obtain small business
awards and agencies to count contracts performed by large firms towards
their small business goals.................................................................................................................1

Challenge 2. Weaknesses in information systems security controls pose
significant risks to the Agency .........................................................................................................2

Challenge 3. Effective human capital strategies are needed to enable SBA to
successfully carry out its mission and become a high-performing organization .............................3

Challenge 4. SBA needs better controls over loan purchase and liquidation processes .................4

Challenge 5. SBA needs to further strengthen its oversight of lending participants ......................5

Challenge 6. The Section 8(a) Business Development program needs to be
modified so more firms receive business development assistance, standards for
determining economic disadvantage are clear and objective, and SBA ensures
that firms follow 8(a) regulations when completing contracts ........................................................6

Challenge 7. Effective tracking and enforcement would reduce financial losses
from loan agent fraud .......................................................................................................................7

Challenge 8. SBA needs to modernize its Loan Accounting System and migrate
it off the mainframe .........................................................................................................................8

Challenge 9. SBA needs to accurately report, significantly reduce, and strengthen
efforts to recover improper payments in the Disaster and 7(a) loan programs ................................9


Completed Challenge: Insufficient and outdated SBA controls contribute to
excessive risk of the SBIC program...............................................................................................10


Appendix: Relevant Reports ........................................................................................................11
Challenge 1. Procurement flaws allow large firms to obtain small business awards and
agencies to count contracts performed by large firms towards their small business goals.

The Small Business Act establishes a Government wide goal that 23 percent of the total value of all prime
contract awards for each fiscal year (FY) be awarded to small businesses. As the advocate for small
business, the Small Business Administration (SBA) should strive to ensure that only small firms obtain
small business awards and that procuring agencies accurately report contracts awarded to small
businesses when representing its progress in meeting small business contracting goals.

Office of Inspector General (OIG) audits and other governmental studies have shown widespread
misreporting by procuring agencies; many contract awards recorded as going to small firms have actually
been performed by larger companies. While some contractors may misrepresent or erroneously calculate
their size, most of the incorrect reporting results from errors made by Government contracting personnel.
Noted errors include acceptance of questionable size self-certifications and misapplication of small
business contracting rules. Also, it is unclear whether contracting officers always review the on-line
certifications that contractors enter into the governmental Online Representations and Certifications
Application (ORCA) prior to awarding contracts. SBA needs to ensure that contracting personnel are
adequately trained on small business procurement procedures and are reviewing ORCA data prior to
awarding contracts.

The Agency also needs to address a loophole within General Services Administration Multiple Awards
Schedule (MAS) contracts that contain multiple industrial codes. Currently, a company awarded such a
contract can identify itself as small on individual task orders awarded under that contract even though it
does not meet the size criteria for the applicable task. Thus, agencies may obtain small business credit for
using a firm classified as small, when the firm is not small for specific orders under the MAS contract.

While more remains to be done, SBA made some progress on this challenge. For example, SBA co-
chaired the President’s Interagency Task Force on Federal Contracting Opportunities for Small
Businesses and recommended mandatory training on small business contracting, procurement policies and
regulations for contracting personnel and program managers. It is also working on an interagency
agreement with the Defense Acquisition University, expected to be executed in FY 2011, whereby SBA
personnel would serve as adjunct faculty to teach small business related contracting courses; and has
worked with the Department of Defense’s Office of Small Business Programs to develop two small
business courses intended for program managers, contracting officers, and contract specialists. SBA
estimated that the courses will be available in FY 2011. Finally, SBA conducted surveillance reviews to
assess whether procurement officials confirmed the small business size status prior to contract award.

 Challenge History                             Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2005               06-0                07-0                  08-1          09-0
                                                                                                Status at end of
                       Remaining Recommended Actions for FY 2011
                                                                                                   FY 2010
 1. Develop and take steps to provide reasonable assurance that agencies are providing
    adequate basic and continuing education training to contracting personnel on small              Yellow
    business contracting procedures.
 2. Develop and implement a program that promotes accurate contractor certifications and
                                                                                                    Yellow
    ensures that contracting personnel review contractor certifications.
 3. Issue regulations that require firms to meet the size standard for each specific order they
    receive under a GSA schedule and Government-wide Acquisition Contract (GWAC) and                Orange
    show that the regulations are being followed.
            Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress



                                                        1
Challenge 2. Weaknesses in information systems security controls pose significant risks to
the Agency.

The confidentiality, integrity, and availability of SBA’s information systems are vital to the continued
successful operation of the Agency. While information technology (IT) can result in a number of
benefits, such as information being processed more quickly and communicated almost instantaneously, it
can also increase the risk of fraud, inappropriate disclosure of sensitive data, and disruption of critical
operations and services. SBA’s computer security program operates in a dynamic and highly
decentralized environment and requires management attention and resources as weaknesses are identified.

SBA continued to improve information system security in several critical areas during FY 2010. SBA
issued procedures requiring vulnerability scanning in contract service level agreements and control
reviews; implemented physical and administrative access controls over Agency systems; and made
progress implementing standard baseline configurations for its Windows operating system servers and
improving controls over major applications. SBA now reviews contractor clearances as part of its
Security Authorization process and tracks compliance in its Plan of Actions and Milestones (POA&M).
To show further progress, SBA needs to address both known and newly-reported information security
issues. For example, SBA needs to demonstrate a process that accomplishes timely mitigation of system
risks that are identified as “medium” and “high;” further implement enterprise-wide and application-level
change control controls for both emergency and normal system changes; and timely implement OIG
recommendations related to IT security issues. While SBA has continued to improve its information
system security, the FY 2010 Financial Statement Audit has identified new weaknesses in segregation of
duty controls within SBA financial systems.


 Challenge History                            Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 1999             06-2                 07-2                 08-2         09-0
                                                                                            Status at end of
                       Remaining Recommended Actions for FY 2011
                                                                                                FY 2010
 1. Access controls are in place and operating effectively, and contractors are not granted
    system access until they have obtained the required background investigations and/or         Yellow
    security clearances.
 2. System software controls are in place and operating effectively.                            Yellow

 3. Segregation of duty controls are in place and operating effectively.                       Orange

 4. The POA&M accurately reports all computer security weaknesses and corrective actions.       Yellow
           Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                          2
Challenge 3. Effective human capital strategies are needed to enable SBA to successfully
carry out its mission and become a high-performing organization.

During the past decade, facing budget constraints at the same time that virtually of all its programs were
growing significantly, SBA restructured key Agency operations, reengineered its largest loan programs,
and downsized personnel through attrition and directed transfers. While these actions transformed the
way SBA does business, the Agency has not adequately analyzed priorities and allocated resources
consistent with those priorities and its new business processes. As a result, there is no assurance that
sufficient resources—in terms of both number of staff and the knowledge and skills possessed by staff—
are available and appropriately deployed to perform critical functions. For example, OIG and GAO
reviews have identified training and inadequate staffing of key functions, including oversight of lenders
and monitoring of 8(a) program requirements, as critical issues affecting the Agency.

The results of the Office of Personnel Management’s (OPM’s) Federal Human Capital Surveys—now the
Federal Employee Viewpoint Survey (FEVS)—have highlighted SBA’s serious human capital challenges.
For example, in 2006 SBA ranked near the bottom on all four human capital indices—Leadership and
Knowledge Management, Results-Oriented Performance Culture, Talent Management, and Job
Satisfaction. SBA was proactive in addressing these results and showed significant improvement in the
2008 survey. In addition, the Partnership for Public Service, in its 2009 rankings of “The Best Places to
Work in the Federal Government,” recognized SBA as the most improved agency, although SBA still
ranked 26 out of 30 large agencies. However, the 2010 FEVS did not show continued progress—SBA
still trailed the government-wide average on the four human capital indices, with the most significant gap
(10 percent) being in Talent Management. In addition, SBA was 29 out of 31 large agencies in the 2010
“Best Places to Work” rankings and its scores were lower than in the 2009 rankings for a number of areas,
including Employee Skills/Mission Match, Strategic Management, and Training and Development.

While SBA has taken positive steps in some areas, such as performance management and leadership
development, it needs to develop a comprehensive workforce planning process that provides a systematic
and strategic approach for ensuring that qualified staff are available and appropriately allocated toward
mission-critical functions and Agency priorities.

 Challenge History                         Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2001
                                         06-0               07-0               08-0               09-0
 (Revised 2007)
                                                                                            Status at end of
                     Remaining Recommended Actions for FY 2011
                                                                                               FY 2010
 1. Allocate appropriate staffing toward Agency priorities – perform an analysis of Agency
    priorities and develop, communicate, and implement a comprehensive plan (including
                                                                                                  Yellow
    responsibilities, metrics, and timeframes) for allocating appropriate staffing (in terms of
    staffing levels and requisite knowledge, skills, and abilities) toward those priorities.
 2. Take steps to correct problems identified by the Federal Employee Viewpoint Survey
    (FEVS) – develop, communicate, and implement a corrective action plan (including
                                                                                                  Yellow
    priorities, responsibilities, metrics, and timeframes) to address the underlying causes of
    SBA’s poor results on the FEVS.
 3. Plan for the future of SBA – develop and implement an effective workforce planning
    program to ensure that there are qualified staff available to perform SBA’s mission-critical Orange ↓
    functions and meet identified priorities for the foreseeable future.
             Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                      3
Challenge 4. SBA needs better controls over loan purchase and liquidation processes.

The majority of loans under the 7(a) loan-guaranty program are made with little or no review by SBA
prior to loan approval because SBA has delegated most of the credit decisions to lenders originating these
loans. SBA’s review of lender requests for guaranty purchases on defaulted loans is, therefore, the
Agency's primary tool for assessing lender compliance on individual loans and protecting SBA from
making erroneous purchase payments. Furthermore, as lenders are delegated the responsibility for
servicing and liquidating SBA loans, SBA’s liquidation process, including the comprehensive charge-off
review, is the last opportunity to identify lender noncompliance. However, OIG audits of defaulted loans
and SBA’s guaranty purchase and liquidation processes have shown that reviews performed by the loan
centers have not consistently detected failures by lenders to administer loans in full compliance with SBA
requirements and prudent lending practices, resulting in improper payments.

SBA has taken actions to correct many of the deficiencies identified by the OIG. SBA reengineered the
7(a) loan guaranty purchase processes at the National Guaranty Purchase Center (NGPC) and the Little
Rock and Fresno Service Centers to improve the efficiency and consistency of the process; increased
staffing levels at the centers; developed a comprehensive operations manual for the NGPC; trained
individuals responsible for making purchase decisions; and implemented policies and procedures
governing the guaranty purchase and liquidation processes to ensure lender compliance before honoring
loan guaranties. While improvements have been made, SBA will need to fully implement its Quality
Assurance Review Program at the centers and incorporate these procedures into a formal policy.

 Challenge History                           Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2001            06-0               07-0                08-2            09-0
                                                                                           Status at end of
                       Remaining Recommended Actions for FY 2011
                                                                                               FY 2010
 1. Implement a Quality Assurance Program for all SBA loan centers.                             Orange
 2. Implement policies and procedures governing the guaranty purchase and liquidation
                                                                                                Green ↑
    processes to ensure lender compliance before honoring SBA loan guaranties.
           Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                     4
Challenge 5. SBA needs to further strengthen its oversight of lending participants.

Since its inception in 1953, SBA has loaned or guaranteed billions of dollars to finance and spur
investment in small businesses. More than 68 percent of loan dollars guaranteed by SBA are made by
lenders using delegated authorities with limited oversight. Prior reviews of SBA’s Office of Credit Risk
Management (OCRM) disclosed that onsite lender examinations did not adequately assess lender risk;
reviews were not made of high-risk, medium-sized lenders; and SBA had not effectively implemented
enforcement actions. High risk lenders now account for more than 80 percent of SBA’s 7(a) outstanding
portfolio. The risks inherent in delegated lending require an effective oversight program to: (1) monitor
lender compliance with SBA policies and procedures; and (2) take corrective actions when a material
noncompliance is detected.

The Agency has made substantial progress in its oversight of lenders in the 7(a) and 504 loan programs,
reducing action items within this Management Challenge from 8 in FY 2006 to 3 in FY 2010. With
authority to charge fees to cover the cost of on-site lender reviews, SBA expanded the scope of its
oversight by more than doubling the number of on-site reviews of large high-risk lenders. It also issued a
Lender Review Standard Operating Procedure (SOP) to guide the on-site review process and modified the
Lender Risk Rating System to further strengthen lender risk assessments. In October 2010, SBA issued
its new Lender Supervision and Enforcement SOP that establishes oversight and enforcement actions
against nonperforming lenders. The SOP is comprehensive and addresses a number of the concerns that
the OIG has had with lender oversight issues. In particular, the SOP provides for agreed- upon procedure
reviews and corrective action plans that include milestones and timeframes for achieving results. The
guidelines established for lender performance will assist the OCRM in establishing goals and target dates
for inclusion in lender corrective action plans.

While the SOP took effect on October 1, 2010, SBA will need to demonstrate consistent and reliable
adherence to the procedures and corrective action plans to improve the performance of high-risk lenders.

                                              Actions Accomplished (Green Status) during Past 4 FYs
 Challenge History
 Fiscal Year (FY) Issued: 2001           06-7(a)-2         07-7(a)-0            08-7(a)-2        09-7(a)-0
                                         06-504-1          07-504-1             08-504-2         09-504-0
                                                                                           Status at end of
                    Remaining Recommended Actions for FY 2011                                  FY 2010
                                                                                           7(a)        504
 1. Expand the scope of lender oversight and improve the process for reviewing lenders
                                                                                          Yellow      Yellow
    and Certified Development Companies (CDCs) for compliance risks.
 2. Implement guidance providing for effective oversight of lending programs.           Yellow ↑    Yellow ↑
 3. Ensure that effective corrective actions are implemented, monitored, and result in
                                                                                       Orange    Orange
    improvement in the performance of participants with unacceptable performance.
           Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                       5
Challenge 6. The Section 8(a) Business Development program needs to be modified so
more firms receive business development assistance, standards for determining economic
disadvantage are clear and objective, and SBA ensures that firms follow 8(a) regulations
when completing contracts.

The SBA 8(a) Business Development (BD) program was created to assist eligible small disadvantaged
business concerns to compete in the American economy through business development.

Previously, the Agency did not place adequate emphasis on business development to enhance the ability
of 8(a) firms to compete, and did not adequately ensure that only 8(a) firms with economically
disadvantaged owners in need of business development remained in the program. Companies that were
“business successes” were allowed to remain in the program and continue to receive 8(a) contracts,
causing fewer companies to receive most of the 8(a) contract dollars and many to receive none.

The Agency has made considerable progress in addressing issues that challenge its ability to deliver an
effective 8(a) program. The Office of Business Development has developed a Business Development
Assessment Tool, as well as a plan to provide 8(a) firms with individualized business development
assistance. In addition, the Office of Business Development has strengthened its policies and procedures
and revised its regulations to ensure that companies that are “business successes” are graduated from the
program. Also, the Agency issued proposed regulations in 2009 to establish clear and objective standards
to address the definition of “economic disadvantage,” but has not taken further action. SBA has further
addressed the need to identify the skills necessary for Business Development Specialists to adequately
evaluate a company’s business plan and assess a participant’s competitive potential. Although the
Agency has taken steps to ensure that procuring agencies enforce contractor compliance with 8(a) BD
program regulations, significant improvements are still needed. The Agency also needs to finalize
regulations necessary to complete applicable recommended actions.

 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2003                06-1                  07-1              08-1           09-1
                                                                                                Status at end of
                         Remaining Recommended Actions for FY 2011
                                                                                                   FY 2010
 1.   Develop and implement a plan, including SOP provisions, which ensures that the 8(a) BD
      program identifies and addresses the business development needs of program participants       Yellow
      on an individualized basis.
 2.   Develop and implement Regulations and SOP provisions to ensure that participants are
                                                                                                    Yellow
      graduated once they reach the levels defined as business success.
 3.   Establish objective and reasonable criteria that effectively measures “economic
                                                                                                   Orange ↓
      disadvantage” and implement the new criteria.
 4.   On a regular basis, conduct surveillance reviews of procuring agencies to ensure they are
      effectively monitoring and enforcing compliance with specified 8(a) BD regulations on         Yellow
      the contracts they administer. (Previously action #5)
              Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                         6
Challenge 7. Effective tracking and enforcement would reduce financial losses from loan
agent fraud.

For more than a decade, OIG investigations have revealed a pattern of fraud in the 7(a) business loan
guaranty program by loan packagers and other for-fee agents. Fraudulent schemes have involved
hundreds of millions of dollars, yet SBA oversight of loan agents has been limited, putting taxpayer
dollars at risk. The Agency could reduce this risk by establishing effective loan agent disclosure
requirements, a database or equivalent means to track loan agent involvement with its loans, and a more
effective agent enforcement program.

Tracking Loan Agent Data -- Over the years, in response to this Management Challenge, SBA has
proposed various methods of tracking loan agent activity. At one point, SBA proposed to revise its E-
Tran system (which collects loan data electronically from participating lenders) to collect information on
loan agent involvement. The Agency ultimately concluded, however, that this approach was not feasible.
At the end of FY 2007, SBA proposed a new approach to integrate information from the Form 159
(which asks for information about loan agents) into the Form 1502 electronic data collection process by
SBA’s Fiscal and Transfer Agent (FTA). The OIG revised recommended action #1 below, but SBA made
no progress on this action during FY 2008, in part due to a protest of the award of the FTA contract. At
the end of FY 2009, SBA presented a succinct plan for implementing the 1502 approach. However,
during FY 2010, SBA again changed its position, and advised that it would capture the data by having the
Form 159 faxed in to the FTA. At the end of FY 2010, SBA issued a notice with directions on how this
data was to be submitted.

Loan Agent Enforcement Procedures -- In FY 2007, the Agency made progress by issuing its Lender
Oversight SOP and by previously revising the guaranty purchase checklist (which lists the records that
lenders need to provide when requesting SBA to pay a guaranty) to include the submission of the Form
159. However, the Agency also needs to establish a more effective enforcement program to deter
fraudulent loan agent activity. Effective October 1, 2010, SBA issued a Lender Supervision and
Enforcement SOP with provisions for loan agent enforcement actions and a delegation of authority to the
Director of the Office of Credit Risk Management.

 Challenge History                           Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2000             06-0               07-1               08-1           09-0
                                                                                          Status at end of
                      Remaining Recommended Actions for FY 2011
                                                                                               FY 2010
 1. Develop an effective method of disclosing and tracking loan agent involvement in the
                                                                                               Yellow ↑
    SBA business loan programs.
 2. Implement procedures for enforcement actions against loan agents for improper and
                                                                                               Yellow ↑
    fraudulent conduct.
           Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                     7
Challenge 8. SBA needs to modernize its Loan Accounting System and migrate it off the
mainframe.

In November 2005, SBA initiated the Loan Management and Accounting System (LMAS) project to
update the Agency’s Loan Accounting System and migrate it off of the mainframe. Previous OIG reports
noted that the system is close to the end of its expected useful life, relies on obsolete technology, contains
major security vulnerabilities that cannot be addressed until the system is moved to a new operating
platform, and is costly to operate. Additionally, the OIG reported concerns about SBA’s management of
the project; the project’s noncompliance with the Agency’s System Development Methodology (SDM) in
key areas, which impacts SBA’s ability to control project costs and quality; and the lack of an enterprise-
wide or project-level Quality Assurance (QA) function to ensure that LMAS deliverables meet SBA’s
requirements and quality standards. Finally, the OIG reported that the LMAS QA contractor had not
performed all of the activities stipulated in its contract and that none of the issued LMAS task orders have
undergone Independent Validation and Verification (IV&V) testing.

In 2009 SBA contracted with McKinsey & Company to conduct a review of the LMAS project. This
review identified multiple weaknesses in SBA’s LMAS project management activities and recommended:
(1) focusing on core mainframe legacy platform replacement; (2) strengthening project governance; (3)
increasing project team resources; 4) focusing on COTS capabilities while minimizing customization; and
5) improving vendor management.

In 2010 OMB issued Memorandum 10-26, recommending that Federal agencies split large-scale
modernization efforts into smaller, simpler segments with clear deliverables. In response, SBA changed
its strategy for LMAS going forward to accelerate the migration of user interfaces from the mainframe
legacy platform to the Agency’s current architecture, and convert batch COBOL systems from the
mainframe to a more current and platform-independent environment. To show further progress, SBA
needs to develop detailed project plans for implementing its new LMAS strategy; implement a QA/IV&V
process that encompasses all of the requirements of its enterprise SDM; and provide sufficient evidence
that all LMAS work products undergo IV&V activities in accordance with the Agency’s Enterprise
Quality Assurance Plan.

 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2010                N/A                N/A                N/A              N/A
                                                                                               Status at end of
                                Recommended Actions for FY 2011
                                                                                                   FY 2010
 1.   Migrate LAS to a new operating platform before the current mainframe contract expires in
                                                                                                    Orange
      2012.
 2.   Modify the LMAS QA/IV&V contract and establish an effective Quality Assurance (QA)
      process which provides senior management independent assurance that LMAS                      Orange
      development activities and related project deliverables meet SBA Quality standards.
 3.   Establish a process for reviewing and accepting LMAS deliverables that complies with
                                                                                                    Orange
      Systems Development Methodology requirements.
 4.   Implement a Quality Assurance process in LMAS in accordance with SBA’s Enterprise
                                                                                                    Orange
      Quality Assurance Plan.
              Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                        8
Challenge 9. SBA needs to accurately report, significantly reduce, and strengthen efforts to
recover improper payments in the Disaster and 7(a) loan programs.

OIG audits of SBA’s Disaster and 7(a) Loan Programs determined that the improper payment rates
reported for these programs were significantly understated. SBA estimated that improper payments in the
Disaster Loan Program were about $4.5 million, or 0.55 percent of loans approved in FY 2007, while the
OIG reported that it was at least 46 percent, or approximately $1.5 billion. SBA also reported that the
improper payment rate for the 7(a) program was 0.53 percent of FY 2008 program outlays, although the
OIG estimated the rate to be 27 percent, or approximately $234 million. SBA’s improper payment rates
were understated because the Agency did not adequately review sampled loans, used flawed sampling
methodologies, and did not accurately project review findings for both programs. Additionally, the OFA
inappropriately overturned improper payments identified by reviewers.

OIG audits in prior years have also identified high percentages of disaster and business loans that were
made to borrowers who were ineligible, lacked repayment ability, or did not provide the required support
for loan disbursement. In 2009, we reported that over 30 percent of reviewed disaster loans were
disbursed for properties that were not the applicant’s primary residence and identified an estimated
$30 million in improper loan guaranty purchases in the 7(a) program. SBA also has not aggressively
pursued recovery of improper payments. SBA has not yet collected more than $2 million of FY 2008
improper payments identified by the OIG.

SBA has taken actions to correct many of the deficiencies identified by the OIG. For example, the
Agency has determined that a secondary market purchase will be considered improper to the extent that
SBA failed to identify and/or collect the improper payment during its post purchase review process. The
Agency also established clear policies for offsetting outstanding ongoing guaranty fees from amounts
paid to the lenders. Also, the Agency has implemented a corrective action plan for the disaster loan
program that addresses OMB requirements. A QAR team of experienced loan officers and legal
personnel was established to perform the improper payment reviews. However, additional actions are
needed to accurately report, significantly reduce, and recover improper payments. SBA needs to
incorporate the improper payment review processes; a denial, repair and improper payment dispute
resolution process; and an improper payment recovery process into formal policy.
 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2010                 N/A                 N/A                 N/A           N/A
                                                                                             Status at end of
                             Recommended Actions for FY 2011                                     FY 2010
                                                                                           Disaster      7(a)
 1.   Ensure that processes used to calculate the improper payment rate for disaster and
      7(a) loans are designed to effectively identify improper payments as defined by       Yellow      Orange
      Office of Management and Budget (OMB) Circular A-123.
 2.   Reassign responsibility for final approval of disputed denial, repair, and improper
      payment decisions from the Office of Financial Assistance to the Office of Risk        N/A        Orange
      Management to ensure an adequate and timely resolution of disputes.
 3.   Develop a process to ensure that reviewers are properly trained to perform improper
                                                                                            Green        N/A
      payment reviews.
 4.   Develop and implement corrective action plans to reduce improper payments in the
                                                                                            Yellow      Yellow
      7(a) and Disaster Loan programs.
 5. Establish a process and time standards to expeditiously recover improper payments
                                                                                         N/A      Orange
    identified during Agency reviews and OIG audits.
            Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress



                                                        9
                                        Completed Challenge


Insufficient and outdated SBA controls contribute to excessive risk of the SBIC program.

The Small Business Investment Company (SBIC) program is designed to stimulate and supplement the
flow of private equity capital and long-term debt to small business concerns. SBA uses both guaranteed
debt (debentures) and equity interest (participating securities) to provide government-backed financing to
SBICs. Effective October 2004, SBA discontinued the licensing of SBIC participating securities due to
the over $2 billion in unprecedented losses experienced by the program. While existing participating
securities SBICs continue to operate in the program, the last funds will expire by 2014 upon the maturity
of their 10-year life cycle.

As of August 2010, SBA had about $6.4 billion of outstanding leverage in both debenture and
participating securities financings at risk. As of August 2010, 138 SBICs were in liquidation with
outstanding leverage of nearly $2 billion, most of which were in Participating Securities. Prior OIG
reports determined that: (1) existing guidance did not provide a systematic approach for transferring
capitally-impaired SBICs into liquidation status and (2) better performance goals and indicators were
needed to show how well and how timely recoveries were maximized for liquidated SBICs.

Our review of the Investment Division’s management reports and discussions with division officials
disclosed that management was actively monitoring and timely transferring impaired SBICs to
liquidations when warranted. Also, management transferred one longstanding problematic SBIC into
liquidation in September 2010, after the principals conceded that they could not raise the additional
capital to cure the fund’s impairment. Management has also developed performance goals and indicators
to evaluate effectiveness of the liquidation process of SBICs and reports annually on whether these goals
have been met.

 Challenge History                             Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2004              06-1                07-1                08-1           09-2
                                                                                              Status at end of
                        Remaining Recommended Actions for FY 2011
                                                                                                 FY 2010
 1. Develop systematic criteria and implement a timely approach for transferring SBICs to
                                                                                                  Green ↑
    liquidation status.
 2. Develop and implement performance goals and indicators that address the efficiency, cost-
                                                                                                  Green ↑
    effectiveness, and timeliness of the SBIC liquidation process. (Previously action #3)
           Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress




                                                      10
                                   Appendix: Relevant Reports

Most of the SBA OIG Reports listed can be found at www.sba.gov/ig.

Challenge 1:

•   SBA Advocacy, Analysis of Type of Business Coding for the Top 1,000 Contractors Receiving Small Business
    Awards in FY 2002, December 2004.
•   The Center for Public Integrity, The Big Business of Small Business: Top defense contracting companies reap
    the benefits meant for small businesses, September 29, 2004.
•   The Center for Public Integrity, The Pentagon’s $200 Million Shingle: Defense data shows billions in mistakes
    and mislabeled contracts, September 29, 2004.
•   SBA OIG, Audit of SBA's Administration of the Procurement Activities of Asset Sale Due Diligence Contracts
    and Task Orders, Report #4-16, March 17, 2004, pp. 8-9.
•   GAO, Contract Management: Reporting of Small Business Contract Awards Does Not Reflect Current Business
    Size, GAO-03-704T, May 7, 2003.
•   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Fred C. Armendariz, Associate Deputy
    Administrator, SBA, May 7, 2003.
•   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Felipe Mendoza, Associate Administrator, Office
    of Small Business Utilization, U.S. General Services Administration, May 7, 2003.
•   SBA OIG, SBA Small Business Procurement Awards Are Not Always Going to Small Businesses, Report #5-
    14, February 24, 2005.
•   SBA OIG, Review of Selected Small Business Procurements, Report #5-16, March 8, 2005.
•   SBA OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16, June
    29, 2010.
•   Interagency Task Force on Federal Contracting Opportunities for Small Businesses Report, September 2010.

Challenge 2:

•   SBA OIG, Audit of SBA’s FY 2009 Financial Statements, Report #10-04, November 13, 2009
•   SBA OIG, SBA’s FY2008 Financial Statements, Report #9-03, November 14, 2008
•   SBA OIG, Audit of SBA’s Financial Statements for FY 2006, Report #7-03, November 15, 2006.
•   SBA OIG, Audit of SBA’s Information System Controls for FY 2004, Report #5-12, February 24, 2005.

Challenge 3:

•   Partnership for Public Service, Best Places to Work in the Federal Government 2010,
    http://bestplacestowork.org/BPTW/rankings/
•   OPM, 2010 Federal Employee Viewpoint Survey (FEVS), http://www.fedview.opm.gov/2010/
•   SBA OIG, The Colorado District Office’s Servicing of 8(A) Business Development Program Participants,
    Report #10-15, September 30, 2010
•   SBA OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement
    Function, ROM 10-13, April 9, 2010
•   SBA OIG, SBA's Administration of the Microloan Program under the Recovery Act, ROM 10-10,
    December 28, 2009
•   Partnership for Public Service, Best Places to Work in the Federal Government 2009
•   OPM, 2008 Federal Human Capital Survey (FHCS)
•   GAO, Agency Should Assess Resources Devoted to Contracting and Improve Several Processes in the 8(a)
    Program, GAO-09-16, November 2008



                                                      11
•   GAO, Opportunities Exist to Build on Leadership’s Efforts to Improve Agency Performance and Employee
    Morale, GAO-08-995, September 2008
•   SBA OIG, Non-Native Managers Secured Millions of Dollars from 8(a) Firms Owned by Alaska Native
    Corporations through Unapproved Agreements that Jeopardize the Firms’ Program Eligibility, Report #8-14,
    August 7, 2008
•   GAO, Opportunities Exist to Improve Oversight of Women’s Business Centers and Coordination Among
    SBA’s Business Assistance Programs, GAO-08-49, November 2007
•   SBA OIG, Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in SBA’s Mentor
    Protégé Program, Report #7-19, March 30, 2007
•   SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
    Center, Report #4-39, August 31, 2004
•   GAO, Small Business Administration: Progress Made, but Transformation Could Benefit from Practices
    Emphasizing Transparency and Communication, GAO-04-76, October 2003
•   GAO, Results Oriented Cultures: Implementation Steps to Assist Mergers and Organizational Transformations,
    GAO-03-699, July 2003
•   GAO, Small Business Administration: Workforce Transformation Plan is Evolving, GAO-02-931T, July 16,
    2002
•   SBA OIG, Modernizing Human Capital Management, Report #2-20, May 31, 2002
•   GAO, Small Business Administration: Current Structure Presents Challenges for Service Delivery, GAO-02-17,
    October 2001
•   GAO, Small Business Administration: Steps Taken to Better Manage its Human Capital, but More Needs to be
    Done, GAO/T-GGD/AIMD-00-256, July 20, 2000
•   SBA OIG, A Framework for Considering the Centralization of SBA Functions, November 1996

Challenge 4:

•   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans, #10-19,
    September 24, 2010
•   SBA OIG, SBA’s Management of the Backlog of Post-purchase Reviews at the National Guaranty Purchase
    Center, #9-18, August 25, 2009
•   SBA OIG, , The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
    Guaranty Loan Program #9-16, July 10, 2009
•   SBA OIG, Review of Key Unresolved OIG Audit Recommendations in Program Areas Funded by the
    American Recovery and Reinvestment Act and Related Activities Need to Safeguard Funds, #ROM 09-1, April
    30, 2009
•   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, #9-08, January 30, 2009
•   SBA OIG, Audit of Six SBA Guaranteed Loans, #8-18, September 8, 2008
•   SBA OIG, Audit of Loan Classifications and Overpayments on Secondary Market Loans, #8-09, March 26,
    2008
•   SBA OIG, Audit of UPS Capital Business Credit’s Compliance with Selected 7(a) Lending Requirements, #8-
    08, March 21, 2008
•   SBA OIG, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty Purchase
    Center, Report #7-23, May 8, 2007
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-17, March 12, 2007
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-15, February 12, 2007
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-10, January 16, 2007
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-09, January 9, 2007
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-07, December 29, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-06, December 28, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-05, December 20, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #7-02, October 23, 2006
•   SBA OIG, Audit of Deficiencies in OFA’s Purchase Review Process for Backlogged Loans,
    Report #6-35, September 29, 2006



                                                      12
•   SBA OIG, Survey of the Quality Assurance Review Process, Report #6-26, July 12, 2006
•   SBA OIG, Audit of SBA’s Implementation of the Improper Payments Information Act, Report #6-25,
    June 21, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #6-22, May 17, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #6-17, March 20, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #6-16, March 20, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #6-14, March 2, 2006
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #5-26, September 28, 2005
•   SBA OIG, Audit of an SBA Guaranteed Loan, Report #5-21, July 15, 2005
•   SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
    Center, Report #4-39, August 31, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #4-38, August 24, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #4-33, July 30, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #4-28, July, 9, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #4-25, June 22, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #4-06, January 8, 2004
•   SBA OIG, Audit of an Early Defaulted Loan, Report #3-38, September 22, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Report #3-30, June 19, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Report #3-27, May 22, 2003
•   SBA OIG, Audit of the Guaranty Purchase Process, Report #3-15, March 17, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Report #3-07, January 23, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-32, September 30, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-30, September 24, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-23, August 7, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-15, March 29, 2002
•   SBA OIG, Improvements are Needed in Small Business Lending Company Oversight Process,
    Report #2-12, March 21, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-03, February 27, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #2-05, February 27, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Report #1-10, March 9, 2001
•   GAO, Major Management Challenges and Program Risks, GAO-01-260, January 2001
•   SBA OIG, Audit of an Early Defaulted Loan, Report #0-10, April 23, 2000
•   SBA OIG, Audit of an Early Defaulted Loan, Report #0-12, March 28, 2000
•   SBA OIG, Audit of an Early Defaulted Loan, Report #0-05, February 14, 2000

Challenge 5:

•   SBA OIG, SBA’s Oversight of SBA Supervised Lenders, Report #8-12, May 9, 2008
•   SBA OIG, UPS Capital Compliance with Selected 7(a) Lending Requirements, Report #8-08, March 21, 2008
•   GAO, Small Business Administration: Additional Measures Needed to Assess 7(a) Loan Program’s
    Performance, GAO-07-769, July 13, 2007
•   SBA OIG, SBA’s Oversight of Business Loan Center, LLC, Report #7-28, July 11,2007.
•   SBA OIG, SBA’s Use of the Loan and Lender Monitoring System, Report #7-21, May 2, 2007.
•   SBA OIG, Audit of the Office of Lender Oversight Corrective Action Process, Report #7-18, March 14, 2007.
•   GAO, Small Business Administration: Improvements Made, But Loan Programs Face Ongoing Management
    Challenges, GAO-06-605T, April 6, 2006
•   SBA OIG, SBA’s Administration of the Supplemental Terrorist Activity Relief (STAR) Loan Program, Report
    #6-09, December 23, 2005
•   GAO, Small Business Administration: New Service for Lender Oversight Reflects Some Best Practices, But
    Strategy for Use Lags Behind, GAO-04-610, June 8, 2004
•   GAO, Continued Improvements Needed in Lender Oversight, Report #03-90, December 2002




                                                     13
•   SBA OIG, Impact of Loan Splitting on Borrowers and SBA, Advisory Memorandum Report #2-31,
    September 30, 2002
•   SBA OIG, Improvements needed in SBLC Oversight, Advisory Memorandum Report, #2-12, March 20, 2002
•   SBA OIG, Preferred Lender Oversight Program, Report #1-19, September 27, 2001
•   SBA OIG, SBA Follow-up on SBLC Examinations, Report #1-16, August 17, 2001

Challenge 6:

•   SBA OIG, Audit of Two 8(a) Sole –Source Contracts Awarded to Contractors in SBA’s Mentor Protégé
    Program, Report #7-19, March 30, 2007
•   SBA OIG, Audit of Monitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
    Development Contract Performance, Report #6-15, March 16, 2006
•   SBA OIG, Business Development Provided by SBA’s 8(a) Business Development Program, Report #4-22,
    June 2, 2004.
•   SBA OIG, SACS/MEDCOR: Ineffective and Inefficient, Report #4-15, March 9, 2004
•   SBA OIG, Section 8(a) Program Continuing Eligibility Reviews, Report #4-3-H-006-021, September 30, 1994

Challenge 7:

•   SBA OIG, Applicant Character Verification in SBA’s Business Loan Program, Report #3-43, April 5, 2001
•   SBA OIG, Summary Audit of Section 7(a) Loan Processing, Report #0-03, January 11, 2000
•   SBA OIG, Loan Agents and the Section 7(a) Program, Report #98-03-01, March 31, 1998
•   SBA OIG, Fraud Detection in SBA Programs, Report #97-11-01, November 24, 1997
•   SBA OIG, Operation Cleansweep Memorandum, August 21, 1996

Challenge 8:

•   SBA OIG, Adequacy of Quality Assurance Oversight of the Loan Management and Accounting System
    Project, Report 10-14, September 13, 2010
•   SBA OIG, Review of Allegations Concerning How the Loan Management and Accounting System
    Modernization Project is Being Managed, Report #9-17 July 30, 2009
•   SBA OIG, Planning for the Loan Management and Accounting System Modernization and Development Effort,
    Report #8-13, May 14, 2008
•   SBA OIG, SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem,
    Report #5-29, September 20, 2005 – all recommendations closed
•   GAO, Information Technology: Agencies Need to Improve the Accuracy and Reliability of Investment
    Information, GAO-06-250, January 12, 2006.
•   GAO, Major Management Challenges and Program Risks: Small Business Administration, GAO-03-116,
    January 1, 2003
•   GAO, SBA Loan Monitoring System: Substantial Progress Yet Key Risks and Challenges Remain, Testimony
    of Joel C. Willemssen, Director, Civil Agencies Information Systems Accounting and Information Management
    Division, Before the Subcommittee on Government Programs Statement Committee on Small Business, House
    of Representatives, GAO/T-AIMD-00-113, February 29, 2000
•   GAO, SBA Needs to Establish Policies and Procedures for Key IT Processes, Accounting and Information
    Management Division, GAO/AIMD-00-170, May 31, 2000

Challenge 9:

•   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans, Report
    #10-19, September 24, 2010
•   SBA OIG, SBA’s Management of the Backlog of Post-Purchase Reviews at the National Guaranty Purchase
    Center, Report #9-18, August 25, 2009



                                                     14
•   SBA OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
    Guaranty Loan Program, Report #9-16, July 10, 2009
•   SBA OIG, Audit of Borrower Eligibility for Gulf Coast Disaster Loans, Report #9-09, March 31, 2009
•   SBA OIG, The Small Business Administration’s Fiscal Year 2007 Improper Payment Rate for the Disaster
    Loan Program, Report #9-10, March 26, 2009
•   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, Report #9-08, January
    30, 2009
•   SBA OIG, The Use of Proceeds From Gulf Coast Disaster Loans, Report #9-06, January 15, 2009
•   SBA OIG, Disaster Loss Verification Process, Report #8-15, June 17, 2008
•   SBA OIG, Review of the Adequacy of Supporting Documentation for Disbursements, Report #8-07, January
    29, 2008
•   SBA OIG, The Quality of Loans Processed Under the Expedited Disaster Loan Program, Report #7-34,
    September 28, 2007
•   SBA OIG, SBA’s Quality Assurance Reviews of Loss Verifications, Report #7-29, July 23, 2007
•   SBA OIG, Securing Collateral for Disaster Loan Disbursements, Report #7-22, May 9, 2007




                                                      15
